   March 22, 2002




Logistics

DoD International Personal Property
Shipment Rates
(D-2002-068)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CONUS                 Continental United States
COS                   Code of Service
HHG                   Household Goods
MTMC                  Military Traffic Management Command
SFR                   Single Factor Rate
USC                   Universal Service Contract
                             Office of the Inspector General, DoD
Report No. D-2002-xxx                                                               March xx, 2002
      Project No. D2001LH-0163

                                  DoD International Personal
                                   Property Shipment Rates

                                       Executive Summary

Introduction. This audit was initiated in response to a Defense Hotline allegation
concerning household goods shipments originating in the Mediterranean region of
Europe. The allegation claimed that under current procedures [Code of Service 4] DoD
was paying excessive costs for ocean transportation on household goods shipments
because a third party company purchased all or most of the cargo space available on
U.S.-flag vessels and subsequently resold the space at an inflated price to selected
freight forwarders* that participated in the DoD International Personal Property
Program. The complainant alleged that the excessive costs were passed on to the
Government when the freight forwarders submitted new rates to the Military Traffic
Management Command for approval. The Defense Hotline complaint also stated that if
DoD implemented Code of Service 3 for household goods shipments, the ocean
transportation would be provided under a Government contract negotiated directly with
ocean carriers and all freight forwarders would pay the same rate for ocean
transportation. The complaint also claimed that using Code of Service 3 would
eliminate the third party monopoly and lower the overall cost of DoD household goods
shipments. Between October 1, 1999, and August 24, 2002, 51,154 surface shipments of
household goods were moved from 9 selected areas of Europe to the continental United
States.

Objectives. The objectives of the audit were to: determine the validity of the Defense
Hotline allegation that DoD was incurring excessive costs on personal property
shipments; evaluate the effectiveness of the codes of service and rates used; determine
whether procedures were in compliance with applicable regulations; and evaluate the
management control program relative to the objectives. We did not complete the
objective to evaluate the management control program relative to the objectives because
the allegation was not substantiated and the audit was terminated.

Results. The Defense Hotline allegation was not substantiated. We contacted the
complainant who did not provide any substantive information to validate the allegation.
We also contacted 18 freight forwarders involved in moving DoD household goods

*
    Freight forwarder refers to the commercial carrier approved by the Military Traffic Management
    Command to make international household goods shipments. The freight forwarder has the ultimate
    responsibility for the entire move.
from Europe to the continental United States and asked questions to determine the
validity of the allegation. Of the 18 freight forwarders we contacted, 17 stated that they
were not aware of any third party company controlling most or all of the sealift
capacity of U.S.-flag vessels sailing between Europe and the continental United States,
and they had not experienced any problems booking container space on U.S.-flag
vessels. Two of the freight forwarders contacted acknowledged that some companies
purchased substantial amounts of container space and resold some of the space to
freight forwarders that made DoD household goods shipments. However, those
companies do not control all or most of the sealift capacity of U.S.-flag vessels. We
also contacted four ocean carrier representatives to determine if their vessels operated
at full capacity on voyages between the continental United States and Europe. The
ocean carrier representatives’ response was that container space on U.S.-flag vessels
sailing from Europe was available on the majority of voyages, but depending on
economic conditions in effect at the time of a voyage, times exist when a vessel will sail
at maximum cargo capacity.

We could not evaluate the cost and operational effectiveness of using Code of Service 3
versus Code of Service 4 because information required for such an evaluation was not
available.

Management Comments. We provided management a draft of this report on
February 27, 2002. No written response to this report was required. Management
informed us on March 6, 2002, that they concurred with the report and would not be
providing a written response. Therefore, we are issuing this report in final form.




                                            ii
Table of Contents

Executive Summary                 i

Introduction
     Background                   1
     Objectives                   2

Finding
     Ocean Transportation Costs   3

Appendixes
     A. Audit Process
         Scope and Methodology    7
         Prior Coverage           8
     B. Report Distribution       9
Background
           Defense Hotline Allegation. This audit was conducted in response to an
           allegation to the Defense Hotline. The complainant alleged that the DoD was
           charged excessive costs for ocean transportation on household goods (HHG)
           shipments originating in the Mediterranean region of Europe. The complainant
           stated that the excessive costs occurred because a third party company purchased
           all or most of the container space available on U.S.-flag vessels and resold the
           space at inflated prices to freight forwarders∗ who participated in the DoD
           International Personal Property Program, which allowed the third party
           company to establish monopolistic control over DoD HHG shipments because
           the Cargo Preference Act of 1904 requires that DoD shipments be transported
           on U.S.-flag vessels. The complainant also stated that some freight forwarders
           were being denied an opportunity to participate in the DoD International
           Personal Property Program by the third party company because of price
           gouging. Further, the complainant implied that sealift may not be offered to
           some freight forwarders who can afford the high rates. Nevertheless, the
           excessive costs were subsequently passed on to the Government when the freight
           forwarders submitted new rates [single factor rates] to the Military Traffic
           Management Command (MTMC) during the biannual rate submission cycles.
           In addition, the allegation claimed that a case study conducted on HHG
           shipments originating in the Mediterranean region affirmed that excess ocean
           costs were being charged for DoD HHG shipments.

           The complaint also stated that if DoD implemented Code of Service (COS) 3 for
           shipments originating in Europe, ocean transportation would be provided under
           a Government contract and all of the freight forwarders would pay the same
           rate, thereby eliminating the excessive ocean transportation costs.

           Between October 1, 1999, and August 24, 2002, 51,154 surface shipments of
           household goods were moved from 9 selected areas of Europe (including
           Belgium, Crete, Germany, Italy, the Netherlands, Portugal, Spain, Turkey, and
           the United Kingdom) to the continental United States (CONUS).
           Codes of Service. DoD uses two codes of service (COS 3 and COS 4) for
           HHG shipments made by commercial carriers by way of surface transportation.
           Under COS 3, the freight forwarder is responsible for origin service, line haul
           to the port, line haul to the destination, and destination services. The ocean
           transportation under COS 3 is provided under the provisions of a Government
           contract negotiated directly with the ocean carrier. With the exception that the
           freight forwarder is responsible for arranging and providing the ocean
           transportation, COS 4 is identical to COS 3. Single Factor Rate. Both COS 3
           and COS 4 shipments use a single factor rate (SFR) to charge the Government
           for HHG shipments. The SFR is a dollar amount applied to each 100 pounds of

∗
    Freight forwarder refers to the commercial carrier approved by the Military Traffic Management
    Command to make international HHG shipments. The freight forwarder has the ultimate responsibility
    for the entire move.



                                                    1
     cargo. The rate is applied to the total shipment weight to determine the total
     shipment cost. Freight forwarders develop an SFR for each lane of traffic for
     which they wish to compete and submit the rates to MTMC during each
     biannual rate submission cycle. The SFR for COS 3 and COS 4 shipments
     includes origin, line haul, and destination costs. The SFR for COS 4 shipments
     also includes the ocean transportation charges. For COS 3 shipments, which
     use the Government contract for ocean transportation, the freight forwarder pays
     the ocean carrier directly and then bills the ocean transportation costs as a
     separate item on the HHG shipment invoice submitted to the Government.

Objectives
     The objectives of the audit were to: determine the validity of the Defense
     Hotline allegation that DoD was incurring excessive costs on personal property
     shipments; evaluate the effectiveness of the COS and rates used; determine
     whether procedures were in compliance with applicable regulations; and
     evaluate the management control program relative to the objectives. We did not
     complete the objective to evaluate the management control program relative to
     the objectives because the allegation was not substantiated and the audit work
     was terminated. See Appendix A for a discussion of audit scope, methodology,
     and prior audit coverage.




                                        2
           Ocean Transportation Costs
           The complaint to the Defense Hotline alleged that DoD was paying
           excessive ocean transportation costs on HHG shipments originating in
           the Mediterranean region of Europe. We interviewed the complainant,
           freight forwarders, ocean carrier representatives, and DoD transportation
           officials and found no substantive evidence to support the allegation that
           DoD was paying excessive ocean transportation costs because a third
           party company had monopolistic control over the sealift capacity of
           U.S.-flag vessels sailing from the Mediterranean region of Europe.
           Therefore, the Defense Hotline allegation was not substantiated.

Response From Complainant
    We contacted the complainant and requested additional documentation to support
    the allegation. Specifically, we requested that the complainant provide: the
    identity of the third party company; a list of HHG freight forwarders being
    overcharged or denied container space; a copy of the study that validated the
    effectiveness of COS 3; a list of the ports where the alleged overcharging had
    occurred; and any other relevant information to support the allegation.

    We made several followup requests and were provided no additional information
    to support the allegation. The complainant provided a point of contact at
    MTMC who allegedly participated in the case study referenced in the allegation.
    We discussed the matter with the point of contact and other MTMC officials and
    were provided with a study performed on HHG shipments originating in the
    Pacific region. MTMC personnel also told us that they were not aware of any
    study done on shipments between Europe and CONUS, and that COS 3 had
    never been used for HHG shipments between Europe and CONUS.

Responses From Freight Forwarders
    We contacted senior management personnel at 18 freight forwarding companies
    that participated in the DoD International Personal Property Program and asked
    questions to determine the validity of the complaint. We selected six freight
    forwarders that made HHG shipments from each of the personal property
    shipping offices located at Aviano, Italy; Naples, Italy; and Grafenwoehr,
    Germany. We asked each of the freight forwarders the following questions:

           •   Are you aware of a third party company buying all or most of the
               available container space on U.S.-flag ocean carriers?

           •   Has your firm experienced difficulty booking container space?




                                        3
       •   Have there been substantial increases in the rates charged for
           shipping containers? In your opinion, are the prices charged fair and
           reasonable?

       •   What COS does your firm prefer, and would your company compete
           for HHG shipments from Europe under COS 3?

Third Party Buying Container Space. Of the 18 freight forwarders contacted,
17 stated that they were not aware of any third party buying all or most of the
available container space and selectively reselling the space at an exorbitant rate.
Two of the freight forwarders added that buying container space in volume to
receive a discount and then reselling some of that space to other smaller freight
forwarders, including those making DoD HHG shipments, is a common industry
practice. However, companies that buy container space in volume do not
control all or most of the available sealift capacity of U.S.-flag vessels. Of
those two freight forwarders that stated buying and reselling container space is a
common industry practice, one stated that it uses a third party to book
international DoD HHG shipments because it obtains a lower rate from the third
party than from the ocean carrier. The freight forwarder added that because it
was able to book container space from other high volume freight forwarders, it
was able to compete for DoD business. One freight forwarder did indicate that
a third party was buying and monopolizing container space, but added that it
was at specific CONUS ports. Based on the responses from the freight
forwarders contacted, a third party monopolizing sealift capacity of U.S.-flag
vessels in Europe does not appear to exist.

Difficulty in Booking Container Space. Of the 18 freight forwarders
contacted, each stated that they had no difficulty in booking container space on
U.S.-flag vessels for shipments originating in Europe. One respondent stated
that it had difficulty booking container space; however, the problems occurred
at specific CONUS ports on shipments to Europe. Based on the responses from
the freight forwarders, we found no substantive evidence to support that a
systemic problem exists in booking container space for HHG shipments on
U.S.-flag vessels sailing from Europe to CONUS.

Price of Container Space. Of the 18 freight forwarders contacted,
15 responded to the question about the price of container space. Of the 15 who
responded, 14 freight forwarders stated that rates charged for ocean container
space were, in their opinion, fair and reasonable. Of those 14 freight
forwarders, 3 stated that during the last 5 years the rates had dropped (1 stated
by as much as 30 percent). The other freight forwarder who responded to the
question stated that container rates were too high and had doubled in the last 3
years. However, that freight forwarder also acknowledged that the fluctuations
go both ways. Based on the overall responses, no substantive evidence was
present to support the allegation that prices for ocean container space on
shipments originating in Europe were unreasonable.

COS Preference. Of the 18 freight forwarders contacted, 13 stated that they
would compete for shipments from Europe using COS 3, 2 stated they would
not, and 3 did not answer. Regarding preference for a particular COS, 10 of


                                     4
     the 18 freight forwarders stated that they preferred COS 4 to make HHG
     shipments, 4 stated a preference for COS 3, 1 stated it did not matter, and 3 did
     not answer. The primary reason given by the freight forwarders that expressed
     a preference for COS 4 was that it gave them flexibility to provide the best
     service to the DoD Service member. Under COS 3, the freight forwarder must
     use specific carriers and ports. Some freight forwarders stated that those
     specific carriers and ports might not provide the timeliest service, which might
     result in required delivery dates not being met and the military Service members
     receiving inferior service.

Responses From Ocean Carriers
     We contacted four ocean carriers that operate U.S.-flag vessels the DoD HHG
     freight forwarders used. Each ocean carrier representative stated that their
     vessels were not usually filled to capacity for transatlantic voyages. The ocean
     carrier representatives further stated that freight forwarders obtained volume
     discounts for booking significant amounts of container space, and subsequently
     resold the space to other freight forwarders, but not at exorbitant rates. Some
     ocean carrier representatives and freight forwarders contacted stated that
     obtaining volume discounts and reselling the space to other freight forwarders is
     a common industry practice. Based on the information provided by the ocean
     carrier representatives, no one freight forwarder or third party company appears
     to control the majority of sealift capacity on U.S.-flag vessels operating between
     Europe and CONUS.

Effectiveness of Code of Service 3
     Transportation officials in the International Personal Property Section at MTMC
     stated that COS 3 has never been used for HHG shipments in Europe; therefore,
     no historic baseline data were available to compare the cost effectiveness of
     using COS 3 versus COS 4 for shipments originating in Europe. To determine
     the effectiveness of using COS 3, the Universal Services Contract (USC), which
     is the existing Government freight contract with ocean carriers, would have to
     be renegotiated to include HHG cargo. MTMC would also have to issue a new
     solicitation to freight forwarders to obtain SFRs for COS 3 shipments. Because
     the data were not available, we could not evaluate the cost and operational
     effectiveness of using COS 3 rather than COS 4.

     Universal Services Contract. To implement COS 3 in Europe, the USC would
     have to be renegotiated to include HHG shipments. The USC contract has a
     general provisions section and four customer service annexes. The customer
     service annexes provide the shipping rates and specific shipping requirements
     for the four largest Defense shippers under the USC contract—the Defense
     Logistics Agency, the Defense Commissary Agency, the Army Air Force
     Exchange Service, and the Navy Exchange Command. HHG shipments under
     COS 3 would be made using the provisions of the general section of the USC
     contract. Each section of the contract contains cargo minimums and maximums,
     as well as the steamship companies for the particular routes. To implement


                                         5
    COS 3 between CONUS and Europe, the cargo minimums and maximums
    would have to be revised to include HHG shipments and the rates renegotiated.

    COS 3 Rates. Because COS 3 has never been used for HHG shipments
    between Europe and CONUS, MTMC would have to solicit SFRs from all of
    the freight forwarders that wanted to compete on HHG shipments under COS 3.
    Without knowing which freight forwarders would participate in HHG shipments
    under COS 3, and the SFR for each particular route, estimating the cost to the
    Government of an HHG shipment under COS 3 or determining the cost
    effectiveness of using COS 3 versus COS 4 is not possible.

Conclusion
    Based on information from the complainant, freight forwarders, ocean carrier
    representatives, and various DoD transportation officials, no substantive
    evidence was present that supported the allegation that DoD paid excessive costs
    for ocean transportation on HHG shipments originating in Europe. In addition,
    the cost effectiveness of COS 3 could not be evaluated because the information
    needed to develop an accurate baseline for comparison purposes did not exist.
    Because audit results did not identify information to support the allegation, we
    discontinued further work on this audit and issued the report with no
    recommendations.




                                       6
Appendix A. Audit Process

Scope and Methodology
    We reviewed applicable policies, procedures, processes, and regulations related
    to the DoD International Personal Property Program. We met with
    transportation officials from the Personal Property Division and the Joint Traffic
    Management Office at headquarters, MTMC and discussed the Defense Hotline
    allegations, obtained information on a 1998 case study that analyzed the
    effectiveness of COS 3 and COS 4 HHG shipments in the Pacific region, and
    collected rate and shipment data for transatlantic HHG movements for FY 1999,
    FY 2000, and FY 2001. We also contacted the complainant for additional
    information, as well as representatives of the Maritime Administration, senior
    management officials at 18 freight forwarding companies, 4 ocean transportation
    companies, and 4 Transportation Management Offices to discuss the allegation
    and obtain relevant information.

    Scope Limitations. Most of our audit work consisted of preliminary planning
    research to clarify the broadly written and nonspecific allegation contained in
    the Defense Hotline. Accordingly, audit conclusions in this report are based on
    limited contact with the complainant, the Maritime Administration, selected
    freight forwarders, ocean carriers representatives, and transportation officials at
    MTMC. We were unable to identify any specific instances of limited
    competition, unfair pricing, or monopolistic control of container space on
    U.S.-flag vessels. Because the audit disclosed no evidence to substantiate the
    allegation, detailed tests of documentation, shipment pricing and payments,
    internal controls, and compliance with applicable laws and regulations were not
    performed.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Contract Management high-risk area.

    Use of Computer-Processed Data. We used computer-processed data from the
    MTMC Transportation Operational Personal Property Standard System to obtain
    shipment data. The data were used to identify freight forwarders that moved
    HHG shipments between Europe and CONUS during the time frames and in the
    geographical areas we selected. We concluded that the data were sufficient for
    this purpose; therefore, we did not assess the reliability or accuracy of the
    computer-processed data.

    Audit Type, Date, and Standards. We performed this economy and efficiency
    audit from August through December 2001 in accordance with generally
    accepted government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD, the complainant, the Maritime Administration,


                                         7
    and senior management personnel of ocean shipping companies and selected
    freight forwarding companies. Further details are available on request.

Prior Coverage
    No prior coverage has been conducted on transportation codes of service for
    international HHG shipments during the last 5 years.




                                       8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Logistics and Materiel Readiness)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
U.S. Transportation Command
 Military Traffic Management Command

Non-Defense Federal Organization
Office of Management and Budget




                                          9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         10
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Dennis E. Payne
Albert L. Putnam
Bernard M. Baranosky
Gregory S. Fulford
Steven G. Schaefer
Brantley Thomas
Sharon L. Carvalho




                                          11
